No. 20-244

1Jn tqc §uprcmc Qrourt of tqc Nnitcb §fates

JAMES MICHAEL FAYED,

Petitioner,

V.

STATE OF CALIFORNIA,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the Brief in
Opposition to the Petition for Writ of Certiorari contains 3,683 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated: November 30, 2020
Respectfully submitted,
XAVIER BECERRA

Attorney General of California

~

lDAN lVRI ·

Deputy Attorney General

Counsel of Record
Counsel for Respondent
LA2020602311

